<html>
<title> - JUVENILE JUSTICE ACCOUNTABILITY AND IMPROVEMENT ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
      JUVENILE JUSTICE ACCOUNTABILITY AND IMPROVEMENT ACT OF 2007

=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 4300

                               __________

                           SEPTEMBER 11, 2008

                               __________

                           Serial No. 110-205

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                   U.S. GOVERNMENT PRINTING OFFICE
44-327 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            LOUIE GOHMERT, Texas
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 11, 2008

                                                                   Page

                                THE BILL

H.R. 4300, the ``Juvenile Justice Accountability and Improvement 
  Act of 2007....................................................     3

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................    10

                               WITNESSES

Mr. Bryan A. Stevenson, Executive Director, Equal Justice 
  Initiative, Montgomery, AL
  Oral Testimony.................................................    11
  Prepared Statement.............................................    14
Mr. Richard G. Dudley, Jr., M.D., New York, NY
  Oral Testimony.................................................    27
  Prepared Statement.............................................    28
Mr. Raphael B. Johnson, Juvenile Offender Reformed, Detroit, MI
  Oral Testimony.................................................    52
  Prepared Statement.............................................    54
Elizabeth M. Calvin, Esquire, Children's Rights Advocate, 
  Children's Rights Division, Human Rights Watch, Los Angeles, CA
  Oral Testimony.................................................    59
  Prepared Statement.............................................    61

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................    70

                                APPENDIX

Material Submitted for the Hearing Record........................    83

                        OFFICIAL HEARING RECORD
      Material Submitted for the Hearing Record but not Reprinted

University of San Francisco Law Review, Volume 42, Spring 2008, Number 
    4, ``Sentencing Our Children to Die in Prison: Global Law and 
    Practice,'' Connie de la Vega & Michelle Leighton


      JUVENILE JUSTICE ACCOUNTABILITY AND IMPROVEMENT ACT OF 2007

                              ----------                              


                      THURSDAY, SEPTEMBER 11, 2008

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:14 p.m., in 
room 2237, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Conyers, Waters, Johnson, 
Gohmert and Coble.
    Staff Present: Bobby Vassar, Subcommittee Chief Counsel; 
Ameer Gopalani, Majority Counsel; Jesselyn McCurdy, Majority 
Counsel; Mario Dispenza, Fellow, BATFE Detailee; Veronica 
Eligan, Majority Professional Staff Member; Caroline Lynch, 
Minority Counsel; Kimani Little, Minority Counsel; and Kelsey 
Whitlock, Minority Staff Assistant.
    Mr. Scott. The Subcommittee will now come to order.
    I am pleased to welcome you today to the hearing before the 
Subcommittee on Crime, Terrorism, and Homeland Security on H.R. 
4300, the ``Juvenile Justice Accountability and Improvement Act 
of 2007.''
    The United States is the only country on Earth that 
sentences its children to die in prison. The only country. We 
now have over 2,400 persons in prison serving sentences for 
life without parole for crimes they committed as adults. We are 
adamant that children are not mature enough to vote, to join 
the military, to smoke or drink, to enter into contracts, or to 
serve on juries; however, when it comes to being responsible 
for crimes, children can be and are sentenced to the harshest 
adult sentences short of death, life without parole. Sixteen 
percent of those serving juvenile life without parole sentences 
were between the ages of 13 and 16 at the time of the offense; 
73 of them were only 13 or 14 years old at the time of the 
offense. The majority of these teenagers, it was their first 
conviction ever. Some of them were not the one that pulled the 
trigger; instead, they aided or abetted someone else, often 
older, who was the principal actor. Ironically, it is estimated 
that in 56 percent of the cases with adult codefendants, the 
adult actually received a lower sentence than the youth.
    Many of these youth offenders share tragic stories of years 
of childhood abuse and neglect before their offense. Bryan 
Stevenson, with the Equal Justice Initiative, will tell you 
about Ashley, who was abandoned by her mother at a crack house 
when she was in diapers, assaulted by her father so badly that 
she ended up in a hospital, and sexually assaulted at the age 
of 11 by her stepfather. At 14, she tried to escape the 
violence with an older boyfriend who shot and killed her 
grandfather and aunt. Because of Alabama's mandatory sentencing 
law, she is now serving a sentence of life without parole.
    Other stories are equally tragic. Despite these horrific 
stories, there is hope that these youth offenders can rise 
above their pasts and their crimes and live productive lives.
    Teenagers act differently from adults because they are 
different. Through well-established scientific studies, we know 
that the frontal lobes of their brains, which are critical to 
controlling impulsive behavior and making good choices, are not 
fully developed. This will change as they become adults.
    Now, it was recognized by the Supreme Court in Roper v. 
Simmons the character of teenagers is not well formed, so they 
are not only vulnerable to maladjusted impulse behaviors, but 
are receptive to education, treatment, and rehabilitation. At 
the time of sentencing, it is too early to predict that there 
is no hope for a juvenile, and we should not at that stage 
throw away the key forever.
    Life without parole sentences also disproportionately 
impact racial and ethnic minorities. A study in California 
revealed that African American youth arrested for murder are 
almost six times more likely to receive a life without parole 
sentence than White youth arrested for murder.
    H.R. 4300 is a straightforward bill. It does not mandate 
the release of any juvenile. It merely requires States to 
provide all juveniles with a meaningful opportunity for parole 
at least once in the first 15 years of incarceration, and once 
every 3 years thereafter. If the States choose not to, they 
risk losing some of their Federal funding.
    The bill also requires the Federal judicial system to 
similarly provide a meaningful opportunity for parole for 
juveniles. There are 35 individuals serving life without parole 
sentences that they received in the Federal system for crimes 
committed when they were juveniles.
    Finally, H.R. 4300 provides grant money to improve the 
quality of legal representation provided to juveniles charged 
with or convicted of life without parole sentences.
    I hope that my colleagues will support the bill, and now 
would be pleased to recognize the Ranking Member of the 
Subcommittee Judge Gohmert.
    [The bill, H.R. 4300 follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Gohmert. Thank you, Chairman Scott. And I would ask 
unanimous consent to submit an opening statement in writing. I 
need to do some more work on it. If that might be allowed----
    Mr. Scott. Without objection.
    Mr. Gohmert [continuing]. Within 5 days.
    But I would like to say in my capacity as a former judge, 
you know, I have wrestled with these issues of sentencing in a 
very personal way. And though I know that sometimes we here in 
Washington think that we have far greater knowledge and wisdom 
than anyone in any of the State governments, whereas when you 
reflect on it, perhaps the fact that they are working in the 
State and local government rather than being here may be 
evidence that they are more wise.
    But it is an ongoing struggle. Do we usurp the State 
authority and substitute our judgment for those States? I don't 
think the Constitution provides for that. When it comes to 
juvenile justice, having seen families destroyed, lives 
destroyed, and I mean literally, people killed because someone 
was not tough enough with a juvenile who had already 
demonstrated that they were a dangerous threat to others around 
them, I know it is--I hesitate to interject the judgment of 
Washington for somebody on the scene locally.
    And I realize that there is some wisdom in saying the 
parole board should have more often reviews, and I appreciate 
that, but my thing is I am struggling with the bill not because 
things in it may not be a good idea, but it is the Federal 
Government telling the State government what they can or can't 
do in their own constitutionally reserved cases.
    So I look forward to the testimony here, hearing from you, 
and yield back the balance of my time.
    Mr. Scott. Thank you.
    Without objection, all Members may include opening 
statements in the record at this point.
    We have a distinguished panel of witnesses with us today to 
discuss the legislation. Our first witness will be Bryan 
Stevenson, who is the executive director of the Equal Justice 
Initiative in Montgomery, Alabama, and a professor of law at 
New York University School of Law. His efforts to confront bias 
against the poor and people of color in the criminal justice 
system have earned him dozens of national awards. In 2007, his 
organization published a report, ``Cruel and Unusual: 
Sentencing 13- and 14-Year-Old Children to Die in Prison.''* 
The report is powerful and reveals the tragedy that has 
resulted from the political rhetoric of adult time for adult 
crime. Mr. Stevenson is a graduate of Harvard Law School and 
Harvard School of Government.
---------------------------------------------------------------------------
    *The 2007 report, ``Cruel and Unusual: Sentencing 13- and 14-Year-
Old Children to Die in Prison,'' has been made a permanent part of this 
record and is archived at the Committee on the Judiciary. The report 
may also be viewed on the Internet at the following address: http://
www.eji.org/eji/files/20071017cruelandunusual.pdf.
---------------------------------------------------------------------------
    Our second witness is Dr. Richard Dudley, who is a 
practicing psychiatrist whose practice involves both the 
evaluation and treatment of African American men and forensic 
practice. He has taught at the New York University School of 
Law and the City of New York Medical School at City College. 
During 2005 and 2006, he served as a Commissioner on the 
Commission of Safety and Abuse in America's Prisons. He has a 
medical degree from Temple University School of Medicine and 
completed his psychiatric residency at Northwestern University 
Institute of Psychiatry in Chicago.
    Next witness is Raphael Johnson from Michigan. At the age 
of 17, he shot and killed someone, was convicted of murder, and 
sentenced to 10 to 25 years in prison. He served 12 years, and 
has been out now for 4 years. He went to college and received a 
B.A. Summa cum laude from the University of Detroit Mercy, is 
now married with two children. He has his own company where he 
does motivational speaking and conflict resolution; works for 
Goodwill Industries of the Greater Detroit Area as a community 
reintegration coordinator, where he helps ex-offenders 
successfully reenter society. He is also working on a master's 
degree.
    Our final witness will be Elizabeth Calvin, who works in 
the Children's Rights Division of Human Rights Watch. She is 
the author of the Human Rights Watch report, When I Die, 
They'll Send Me Home: Youth Sentenced to Life Without Parole in 
California. She has also written a national practice guide for 
attorneys representing children, an assessment of the quality 
of attorneys representing youth, and a guide for reducing 
unnecessary detention of children. She is a founding director 
of a legal services program to address education and mental 
health and homelessness among juvenile offenders in Washington 
State. She has a B.A. in political science and a J.D. from the 
University of Washington School of Law and taught law school at 
Loyola School of Law.
    Now, each witness's written statement will be made part of 
the record in its entirety, and I would ask each of our 
witnesses to summarize his or her testimony in 5 minutes or 
less. To help stay within that time, there is a lighting device 
in front of you which will start off green, switch to yellow 
when 1 minute is left, and red when 5 minutes are up.
    Do I understand that Dave Marsden from the Virginia House 
of Delegates is here? Dave? Good to see you, sir. Thank you.
    Mr. Marsden. Good to see you.
    Mr. Scott. Good to have you with us.
    Bryan Stevenson.

  TESTIMONY OF BRYAN A. STEVENSON, EXECUTIVE DIRECTOR, EQUAL 
               JUSTICE INITIATIVE, MONTGOMERY, AL

    Mr. Stevenson. I want to express my deep gratitude for you 
taking time to take on this very serious issue. As Chairman 
Scott indicated, there are 2,500 children in the United States 
who have been sentenced to life in prison without parole. There 
are hundreds more, thousands more, that have been sentenced to 
sentences of life imprisonment. And I do believe that this is a 
very critical issue that would benefit from this legislation 
which has been proposed.
    Let me first say that one of the big problems that I see as 
an attorney who represents this population a great deal is the 
profound absence of hope that seems to have demoralized whole 
communities. I go into poor sections across this country and 
poor neighborhoods and rural neighborhoods, and the thing that 
is most tragic to me is I meet 13- and 14-year-old children who 
tell me that they don't believe they are going to live past the 
age of 18, and that despair shapes the way they see the world. 
It is the way they organize themselves. They don't talk to me 
about staying in school. They don't talk to me about this. They 
talk about ``getting mine while I can.'' And that hopelessness 
is something that is very, very tragic. And I think it is 
reinforced by the criminal justice system that takes kids and 
throws them away.
    And I believe that a sentence of death in prison imposed on 
someone as young as 13 or 14 is very, very hopeless. The 
tragedy is when I work with these young people even in the 
incarceration system, they become more hopeful at 21 and 22 
behind bars than they were at 13 and 14 on the street. And it 
says something to me about the power of intervention. We do 
have kids that are at risk that do things that require 
punishment, but we can work with them.
    The tragedy of the law right now is that we condemn 
children as young as 13 to die in prison, and I would like to 
suggest to the judge in particular that the consequence of 
these sentences or how we got there was not the consequence of 
thoughtful decision-making by State legislatures. In the early 
1990's we began lowering the minimum age for trying children as 
adults with no consideration for how that would intersect with 
sentencing at the high end. A lot of States were concerned 
about giving more leeway to criminal justice policymakers on 
sentencing at the low end, thinking that the juvenile system 
was inadequate, but unfortunately, when we brought these kids 
into the adult system, they collided with another phenomena of 
the 1990's, which was mandatory sentencing. And as a result of 
mandatory sentencing, about 70 percent of the cohort of 13- and 
14-year-olds were sentenced to die in prison in proceedings 
where the judge could not consider their age, could not 
consider their status, could not consider the fact that they 
were first offenders or that an older codefendant got a less 
sentence. And I think that speaks to the need of reform.
    And one of the, I think, real serious problems that I hope 
this legislation can also help us address is the real problem 
of providing the kinds of assistance that these kids need. I 
represented a young man by the name of Ian Manuel, who was 13 
years of age, in Florida, and he was charged with an aggravated 
robbery. And his lawyer actually urged him to plead guilty, 
which he did. And when he went before the judge, the judge 
sentenced him to life imprisonment without parole. Of course, 
you would never plead guilty for a life imprisonment without 
parole sentence, but because he was young, and because he was 
poor, that sentence still stands. He has had no opportunity to 
challenge. Even the victim in that case has joined the effort 
to try to get release for Mr. Manuel, but life without parole 
doesn't facilitate that. And I see these cases playing out time 
and time again.
    Kids this age are very vulnerable to all of the problems of 
the criminal justice system, wrongful convictions included. I 
represent another 13-year-old by the name of Joe Sullivan, who 
was convicted of a sexual assault with two other young men who 
are absolutely convinced that Joe at age 13 did not commit a 
rape. But the DNA evidence that could exonerate him now, this 
was in the early 1990's, has been lost. And, of course, we 
don't have the opportunity to challenge that sentence. And so 
parole would be an opportunity for us to get sentencers and 
policymakers to deal with this case. But life without parole 
means you never are heard from again, and it is the silence 
surrounding this universe of young kids that I think makes 
reform so critically needed.
    One of the big challenges in providing assistance to this 
young group of people is the way in which they become very 
victimized in the adult prison system. As we all know, you are 
substantially more likely to be the victims of sexual assault, 
trauma, et cetera. Yesterday I got a call from one of our young 
clients in Alabama who was raped. We now assessed in our 
population of 13- and 14-year-olds that 70 percent have been 
victimized by sex crimes.
    A young client in Pennsylvania, Trina Garnett, 14 years 
old, Westchester, Pennsylvania, was trying to see a boy next 
door and was using matches to light her way to the bedroom. The 
house caught on fire. Two children were killed. She was charged 
with arson, murder; convicted of murder; sentenced to life 
imprisonment without parole at 14. She goes to the State 
penitentiary, where she is raped by a male guard. The State 
never prosecuted the guard. She is now 44 years of age, 
multiple sclerosis, a lot of disabilities. Correctional staff 
will tell you she is the first person who they would recommend 
for release, but life without parole doesn't facilitate any 
review of that case, and as a result of that, we do believe 
this legislation is critically needed.
    There are so many instances where young kids are abused, 
neglected, victimized, traumatized in the streets and in the 
community, and their first attention only comes when they are 
accused of committing a crime. We think that we have to have 
sentencing for children that takes into account all of those 
factors and that allows us to create a sentencing regime that 
is responsive.
    One final example. I am representing a young man by the 
name of Antonio Nunez, who grew up in south central L.A., was 
shot several times at 13. His family tried to move out of the 
area, but because he had a sibling who was on probation, they 
were required to come back to south central L.A. He joins a 
gang, at 14 was brought in to attempt to commit a kidnapping. 
He was chased by the police, shots are fired, no one is 
injured, but because of California's sentencing law, he goes to 
trial with his older codefendant, convicted of aggravated 
kidnapping, sentenced to life imprisonment without parole for a 
crime where there are no injuries. No injuries.
    The eighth amendment says that cruel and unusual punishment 
is prohibited. We believe that sentencing children 13, 14, 15, 
16, and 17 to these kinds of nonreviewable, nonparolable 
sentences is cruel and unusual punishment.
    We do need leadership from Congress. Sentencing reform at 
the State level is very, very difficult. We live in an era 
where so many politicians preach fear and anger, and it creates 
an environment where good sentencing reform is difficult. We do 
need leadership. And I believe this bill represents the kind of 
thing, the kind of intervention that could make a huge 
difference in how States recover from this problem of a growing 
population of very young children who have been sentenced to 
die in prison. I really appreciate the Committee's leadership 
on this issue, and I look forward to answering any questions 
that the Committee might have.
    Mr. Scott. Thank you. Thank you, Mr. Stevenson.
    [The prepared statement of Mr. Stevenson follows:]
                Prepared Statement of Bryan A. Stevenson
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Dr. Dudley.

    TESTIMONY OF RICHARD G. DUDLEY, JR., M.D., NEW YORK, NY

    Dr. Dudley. Thank you, Mr. Scott, Members of the Committee, 
for having me here today.
    In the time allotted, I can only briefly summarize what 
behavioral science has to offer to your deliberations. Since 
behavioral science evidence as presented in Roper is considered 
relevant to the matter before you today, I have attached a copy 
of the brief submitted by the American Psychological 
Association and the Missouri Psychological Association that was 
entered in Roper to my written statement. I believe that that 
brief outlines the relevant behavioral science findings that 
support such different treatment of juvenile offenders in more 
detail and provides references for further exploration of the 
findings that are presented and discussed in that brief.
    In essence, child and adolescent growth and development is 
best understood as multiple parallel, but interacting vectors. 
These vectors include physical and biological growth; cognitive 
development, or the development of the ability to think; 
psychological development; social development; and moral 
development. It is important to note that while in some ways 
each of these vectors can be examined separately, each of these 
areas of growth and development does impact on the other, and 
that delays or impairments in one area can also result in 
delays or impairments in another. In addition to that, of 
course, stressful life events, biologically and nonbiologically 
mediated mental illness, et cetera, can also impact on each of 
these areas of growth and development.
    So bearing in mind the importance of this interaction 
between different areas of growth and development and other 
factors that can impact on them, clearly the two areas of 
adolescent development that are most central to the matter 
before you today are cognitive development and psychological 
development.
    We have long known that cognitive capacities increase 
during childhood and adolescence. For quite some time, we 
believed that this has to do with the continuing development of 
the brain, and now recent research made possible by the 
advances of technology has begun to provide a more clear 
picture of the differences between adolescent and adult brains.
    As Mr. Scott noted, we find that the brain is not fully 
developed until after adolescence, actually in the young adult 
years, and that the last area to be fully developed is the 
frontal lobes, which is the brain center for higher functions, 
which we call the executive functions, of the brain. Such 
executive functions include those brain functions involved in 
making rational decisions that are in one's long-term best 
interests, being able to identify and consider reasonable 
options based on available information, weighing the pros and 
cons of each action. Executive brain functions are also 
involved in the planning and implementation of goal-directed or 
intended behaviors. Since impaired frontal lobe functioning has 
also been associated with impulsivity and difficulties in 
attention, concentration, self-monitoring, an increase in these 
capacities has also become associated with the maturation of 
the frontal lobes. So in short, children and adolescents do not 
yet have the physical brain capacity for the type of decision-
making we expect of adults and have legally held adults 
responsible for.
    The path to psychological maturity is at least partly 
influenced by these same biological brain development issues. 
More specifically, as the brain's frontal lobes grow and the 
capacity for executive functions develop, the psychological 
capacity required for considering alternative courses of action 
also develops. So there is an increased capacity to restrain 
impulses, to inform the decisions that we make using a growing 
body of knowledge and information, to consider the impact of 
our decisions that they will have on others, and to consider 
the short- and long-term consequences of these decisions and 
actions.
    Psychological work of adolescents also includes the 
consolidation of one's identity; therefore, adolescents are 
prone to experiment with different aspects of their identity. 
And if this consolidation of identity is complicated, that 
experimentation might become actual risk-taking behavior. And 
while that risk-taking behavior may cause the adolescent to get 
involved with the criminal justice system, more often than not 
these behaviors are transient expressions of the adolescent's 
efforts to establish an identity instead of evidence of a more 
fixed, enduring behavioral disturbance.
    These far less than adult capacities of juveniles should 
clearly be taken into consideration when sentencing juvenile 
offenders. Most importantly, it should be recognized that 
adolescents do not have the capacity for decisionmaking and the 
forming of an intent that adults have. It should also be 
recognized that the transitory nature of adolescence is such 
that the adolescent who stands before the court on one day may 
become a very different and much more highly functioning young 
adult.
    In addition, there is the related finding that these far 
less than adult capacities of juveniles compromises the ability 
of juveniles to adequately participate in all other aspects of 
the adult criminal process, including, for example, making 
important decisions about giving reliable statements, waiving 
rights, entering pleas, and accepting deals.
    Thank you for this opportunity to present to you, and I 
believe that the information gleaned from the behavioral 
sciences provides clear support for protecting juveniles 
through the bill that you are considering today.
    Mr. Scott. Thank you, Dr. Dudley.
    [The prepared statement of Dr. Dudley follows:]
              Prepared Statement of Richard G. Dudley, Jr.
    What we have learned from the behavioral sciences about child and 
adolescent growth and development clearly differentiates children and 
adolescents from adults. However, exactly how this knowledge should 
influence the administration of justice to children and adolescents is 
argued on an almost daily basis. It is argued in jurisdictions across 
the country in individual cases involving children or adolescents that 
we never really hear about; then there are the high profile cases 
involving children or adolescents, some of which have helped to evolve 
the law in this regard; and of course, this same debate often impacts 
on the work of legislators and government administrators.
    As you know, the most recent high profile case where the relevance 
of these issues were argued was `Roper v. Simmons' (125 S. Ct. 1183), 
where the United States Supreme Court decided that the differences 
between adult and youth offenders were so marked and well understood 
that the court abolished the death penalty for juveniles. The 
behavioral science evidence presented in 'Roper' is also relevant to 
the matter before you today--the sentencing of juvenile offenders to 
life without parole.
    In the time allotted for me today, I can only briefly summarize 
what the behavioral sciences have to offer to your deliberations. 
Therefore, I have attached a copy of the Amici Curiae brief from the 
American Psychological Association and the Missouri Psychological 
Association that was entered in 'Roper' to my written statement. I 
believe that that brief expertly outlines the relevant behavioral 
science findings that support such different treatment of juvenile 
offenders in more detail, and provides references for further 
exploration of the findings that are presented and discussed therein.
    In essence, child and adolescent growth and development is best 
understood as multiple, parallel, but yet interacting vectors. These 
vectors include physical/biological growth, cognitive development or 
the development of the ability to think, psychological development, 
social development, and moral development. It is important to note 
however that while in some ways, each of these vectors can be examined 
separately, each of these areas of growth and development can and does 
impact on the others, in that delays or impairments in one area can 
also result in delays or impairments in other areas.
    Bearing in mind the importance of appreciating the impact of one 
aspect of development on another, clearly, the two areas of adolescent 
development that are most central to the matter before you today are 
cognitive development and psychological development.
                         cognitive development:
    We have long known that cognitive capacities increase during 
childhood and adolescence; for quite some time it has been believed 
that this gradual progression towards an adult capacity for cognition 
parallels the growth and development of the brain during the childhood 
and adolescent years; but now, recent research, made possible by 
advances in technology, has begun to provide a more clear picture of 
the differences between the adolescent and adult brain. Of particular 
relevance to this discussion is the finding that the brain is not fully 
developed until after adolescence/until the young adult years, and that 
the last area to fully develop is the frontal lobes, which is the brain 
center for higher functions of the brain, which we call the executive 
functions of the brain. Such executive functions include those brain 
functions involved in making rational decisions that are in one's long-
term best interests, such as being able to identify and consider 
reasonable options based on available information and weighing the pros 
and cons of each option. Executive brain functions are also involved in 
the planning and implementation of goal-directed or 'intended' 
behaviors. Since impaired frontal lobe functioning has also been 
associated with impulsivity and difficulties in attention, 
concentration and self-monitoring, an increase in these capacities has 
also become associated with the maturation of the frontal lobes.
    Simply put, what all of this means is that children and adolescents 
do not yet have the physical brain capacity for the type of decision-
making we expect of adults and have legally held adults responsible 
for. It is also important to note that even once this biological brain 
capacity grows in, just like with any other mental function it takes 
some time and practice before the developing young adult can 
consistently and effectively employ this new brain capacity.
                       psychological development:
    The path to psychological maturity is at least in part clearly 
influenced by the above described biological growth and development of 
the brain. More specifically, as the brain's frontal lobes grow and the 
capacity for executive functions develops, the psychological capacity 
required for considering alternative courses of action also develops. 
For example, there is an increased capacity to restrain impulses long 
enough to think through alternatives and make decisions; there is an 
increased capacity to inform those decisions using a growing body of 
knowledge and information; there is an increased capacity to consider 
the impact that one's decisions will have on others; and there is an 
increased capacity to consider the short and long-term consequences of 
one's decisions and actions.
    The psychological work of adolescence also includes the 
consolidation of one's own identity, apart from simply being the child 
of one's parents. Therefore adolescents are prone to experiment with 
different aspects of their identity, and if consolidation of an 
identity is complicated, that experimentation might become actual risk-
taking behavior. Although such risky behaviors might cause some 
adolescents to get into trouble with the law, more often than not, such 
behaviors are transient expressions of the adolescent's effort to 
establish an identity instead of evidence of a more fixed/enduring 
behavioral disturbance.
                       assessment of adolescents:
    Given all that is going on during the adolescent stage of growth 
and development--all of the above noted and the other aspects of 
development that I have not described here--and given that it is clear 
that the personalities of adolescents are not yet fixed/will continue 
to develop and evolve as they continue to mature, it is extremely 
difficult if not virtually impossible to consistently make long-term 
predictions about the future behavior of any given adolescent. In fact, 
many of us who evaluate adolescents involved in juvenile proceedings 
have found that between the time that the adolescent committed the 
offense and the time that he/she was evaluated and then appeared in 
court, the adolescent had already changed/continued to develop in 
significant ways.
           implications for juvenile justice accountability:
    These far less than adult capacities of juveniles should clearly be 
taken into consideration when sentencing juvenile offenders. Most 
importantly, it should be recognized that adolescents do not have the 
capacity for decision-making and the forming of an intent that adults 
have. It should also be recognized that the transitory nature of 
adolescence is such that the adolescent who stands before the court on 
one day may become a very different young adult. In addition, there is 
the related finding that these far less than adult capacities of 
juveniles compromises the ability of juveniles to adequately 
participate in all aspects of the adult criminal process including, for 
example, making important decisions about giving reliable statements, 
waiving rights, entering pleas and accepting deals.
    I am here today because it is my opinion that when what we know 
about child and adolescent growth and development is taken into 
consideration, sentencing juveniles to life without parole is clearly 
inappropriate.
    Thank you.

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Mr. Johnson.

               TESTIMONY OF RAPHAEL B. JOHNSON, 
            JUVENILE OFFENDER REFORMED, DETROIT, MI

    Mr. Johnson. Mr. Chairman, Members of the Committee, thank 
you for inviting me to testify before you today. I give honor 
to God for giving me my life and for showing me the mercy that 
I have been shown. My name is Raphael Bernard Johnson, and I am 
before you as someone who as a teenager committed a horrible 
and senseless crime. An innocent person lost his life because 
of me, and that is something that I regret more than I can ever 
say, and it is something that I will remember for the rest of 
my life.
    I am a man who spent my young adulthood in prison. By the 
grace of God, I did not receive a life without parole sentence, 
and because of that I was released from prison and have 
dedicated my life to making amends. I would like to tell you my 
story in hopes that it illustrates just how important it is for 
young people to get second chances.
    I grew up in a Detroit neighborhood known for violence, 
guns, and drug dealing. My father went to prison when I was a 
baby. Although I had a loving mother who worked hard for our 
family, I now know that I direly needed a role model, and I 
searched for it in desperate places. As a child and youth, I 
looked to the streets. I thought that being a gangster would 
make me a man.
    My first arrest was at 12. At 14, I was sent to a boys' 
home for 4 years. There things did begin to look up for me. I 
was given a scholarship to attend a private high school, and I 
excelled. I was on the honor roll. I was captain of the 
football team. I even made it to homecoming king. I had a lot 
going on for me, yet still I was an adolescent who could not 
think clearly before he acted, and could not control his anger, 
and could not walk away from conflict.
    When I was 17 years old, at a party where I got into a 
scuffle and was thrown to the ground, in rage and fear I ran 
and got a gun, and I shot someone. It was the most cowardly act 
imaginable. What was in my head at that time? I didn't think 
about my future. I didn't even comprehend that I was ending 
someone else's future. Later I learned that his name was Mr. 
Johnny Havard. I was tried as an adult and sentenced to 10 to 
25 years in prison. Had the outcome been slightly different, my 
sentence would have been life without parole.
    Like a lot of youths sentenced to adult prisons, change did 
not come immediately. Change took time. My thoughts began to go 
to the horrible realities of the losses I caused to the 
victim's family. I even wrote letters trying to express my 
apologies. Each letter would be returned with an ``address 
expired'' stamp fixed to it.
    I realized that I could best serve Mr. Havard's memory by 
changing myself. One thing I had going for me was hope. Because 
I had the chance of parole, a chance that thousands of young 
offenders serving life without parole do not have, I had hope. 
From day one, I saw the light at the end of the tunnel. I had 
something to work towards. And the dream of helping others and 
having a family and making a difference all seemed like a 
possibility.
    I took advantage of all available programming and became a 
certified carpenter, certified plumber, electrician, even a 
paralegal. I read over 1,300 books. I thought about my faith 
and relationship with God. I was able do this in part because I 
had a strong support of family, friends, clergy, and even my 
father, who had transformed himself from a gangster into a 
State correctional officer for the State of Michigan. I focused 
on what I could do to right my wrong, to somehow atone for the 
innocent life I had taken.
    Twelve years after the senseless and unwarranted murder of 
Mr. Johnny Havard, I was released from prison. I have been out 
now for 4 years. I went to college, and last year I received my 
B.A. Summa cum laude from the University of Detroit Mercy. I 
married my childhood sweetheart Shannon, and she has given me 
two beautiful children. I started my own company, where I do 
motivational speaking and conflict resolution all around this 
country. I work with Goodwill Industries in Detroit, helping 
ex-offenders as a community reintegration coordinator. I am a 
published author. I expect to complete my master's degree in 
December of 2008. My master's project will result in a new book 
about successfully reintegrating offenders into society.
    I submit to you that everyone makes mistakes, errors in 
judgments and decisions that they wish they can take back at a 
later time. Perhaps this is especially true for young people. 
What I want to convey to you all is that for any juvenile 
offender who commits a crime as horrible and senseless as mine, 
there should still be some hope.
    I think about my actions that night every single day. I 
think about Mr. Havard's mother, who once declared in a 
courtroom that she could never forgive me. Now, many years 
later, I have a deeper understanding of her pain, because when 
I look at my 2-year-old son and my little baby and imagine if a 
teenager took their lives, I think that I have a clearer sense 
of her hurt and her pain. However, I also can empathize with 
the errors of a misguided teenager who acts without thinking 
into the future and takes the life of another person.
    I humbly ask you all to vote for H.R. 4300, and do so in 
recognition that no adolescent is beyond hope of redemption. 
And every young person should have the chance to prove that 
they can change and be afforded the opportunity to make the 
difference. Thank you for listening.
    Mr. Scott. Thank you, Mr. Johnson.
    [The prepared statement of Mr. Johnson follows:]
                Prepared Statement of Raphael B. Johnson
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Ms. Calvin.

 TESTIMONY OF ELIZABETH M. CALVIN, ESQUIRE, CHILDREN'S RIGHTS 
 ADVOCATE, CHILDREN'S RIGHTS DIVISION, HUMAN RIGHTS WATCH, LOS 
                          ANGELES, CA

    Ms. Calvin. Mr. Chairman and Members of the Committee, 
thank you for inviting me to testify today. I am here to 
support legislation that would provide a meaningful opportunity 
of parole for youth who have been sentenced to life in prison.
    The sentence of life without the possibility of parole is a 
sentence to die in prison. There is no time off for good 
behavior. There is no chance to prove that you have become a 
different person. Next to the death penalty, there is no 
harsher condemnation.
    The Federal Government and 39 States sentence youth under 
the age of 18 to life in prison without the possibility of 
parole. In some States, those children are as young as 13 years 
old. The United States stands alone in the use of this 
sentence. No other country uses this sentence with children. 
Here we have over 2,500 individuals who are serving life 
without parole with no chance for release for crimes that they 
committed when they were under the age of 18. In the rest of 
the world there are zero.
    H.R. 4300 would ensure that young offenders are held 
accountable for their actions, that they face severe penalties. 
But what this bill does is recognize that young people are 
different than adults. They are different in their ability to 
change.
    This bill provides incentives for people to work toward 
rehabilitation while in prison. It is not a get out of jail 
free card. It is a chance to earn one's freedom through 
rehabilitation. A parole hearing will decide whether a person 
should be released and whether they have been rehabilitated or 
not. It will also provide opportunity for the victim or 
victim's family members to be heard.
    Human Rights Watch has investigated the use of life without 
parole in the United States since 2004. Based on our research, 
we support the passage of H.R. 4300 for three primary reasons. 
The use of this sentence for juveniles is frequently 
disproportionate, it is racially discriminate, and it is in 
violation of international law.
    One example of the disproportionate use of this sentence is 
the case of Sara K. Sara was raised by her mother, who was 
addicted to drugs and abusive. At age 11, Sara met G.G., a 31-
year-old man. Soon after, he sexually assaulted her, and he 
began grooming her to become a prostitute. At age 13, Sara 
started working as a prostitute for G.G. He continued sexually 
assaulting her and using her as a prostitute for almost 3 
years. Just after she turned 16, she took a gun and shot and 
killed G.G. And she is serving life without parole.
    Life without parole was created for the worst criminals, 
but our research in the United States has found that this 
sentence is routinely used with young people who have never 
before been in trouble with the law. We estimate that 
nationally 59 percent of youth who get this sentence are first-
time offenders, without even a shoplifting on a criminal 
record.
    Additionally, our research has found that these young 
people often acted under the influence, or in some cases the 
specific direction, of adults. For example, in California we 
found that an estimated 70 percent of cases in which a teen 
acted with a codefendant, at least one codefendant was an 
adult. More disturbing than that is the fact that, in these 
cases, 56 percent of the time the adult got a lower sentence 
than the juvenile.
    Also troubling is the fact that often youth are sentenced 
to life without parole when they were not the primary actor in 
the crime. They were not the trigger person. They were not the 
person who physically committed the crime. For example, nearly 
half the youth sentenced to life without parole surveyed in 
Michigan were sentenced for aiding and abetting or for an 
unplanned murder that happened in the course of a felony.
    We also have serious concerns that racial discrimination 
and disparities plague the sentencing of youth to life without 
parole throughout the United States. On average, across this 
country Black youth are serving life without parole at a per 
capita rate that is 10 times that of White youth. Many States 
have racial disparities that are far greater than that.
    Finally, we support H.R. 4300 because international law 
prohibits life without parole for people who commit their 
crimes under the age of 18. Oversight and enforcement bodies 
for two treaties to which the U.S. is a party have found the 
practice of sentencing juvenile offenders to life without 
parole to be a clear violation of U.S. treaty obligations.
    H.R. 4300 would provide meaningful opportunity for parole 
to youth offenders, and we urge your support. Thank you.
    Mr. Scott. Thank you very much.
    [The prepared statement of Ms. Calvin follows:]
               Prepared Statement of Elizabeth M. Calvin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. I want to thank all of our witnesses for their 
testimony. We will now ask you questions under the 5-minute 
rule. And I wanted to follow up with Ms. Calvin.
    When this bill was introduced, I understood that there were 
12 out of 2,225 people serving life without parole sentences 
around the world, 12 were outside the United States. Are you 
disagreeing with that or giving updated information?
    Ms. Calvin. Yes, sir, this is updated information. As of 
February 2008, every other country in the world has--who had 
been using this sentence for juveniles has changed their laws 
and applied it retroactively. So there are now, to our 
knowledge, no other juvenile offenders serving life without 
parole outside of the United States.
    Mr. Scott. And can you state the two treaties that you 
cited that we are in violation of?
    Ms. Calvin. It would be the International Covenant on Civil 
and Political Rights and the International Covenant to 
Eliminate Racial Discrimination.
    Mr. Scott. Thank you.
    Dr. Dudley, is there any deterrent effect that life without 
parole would have over a juvenile rather than life with parole?
    Dr. Dudley. Well, going back to what I was explaining about 
the capacity for juveniles to make decisions and to think 
through decisions and to consider the issues involved therein, 
it would be equally as difficult for them to consider the bad 
possible consequence or outcome as it is for them to consider 
any other possible outcome of their behavior. So it is really 
the difficulty they have in identifying those options, 
considering those difficulties, holding them in their head, 
weighing the pros and cons. It is the process that they have 
difficulty with. So that piece of information really doesn't 
help juveniles like it may help adults.
    Mr. Scott. So the idea that we would change a penalty from 
life with parole to life without parole would not reduce crime?
    Dr. Dudley. That is correct.
    Mr. Scott. Thank you.
    Mr. Stevenson, are there complexities in dealing with 
juveniles that we would want to help attorneys get through that 
may not apply to adult court?
    Mr. Stevenson. Yes, Chairman Scott. That is one of the 
reasons why I am so pleased that the legislation attempts to do 
something about the counsel problem we have surrounding young 
kids. Most adult defenders, historically, have had no 
experience dealing with young kids, especially kids as young as 
13 and 14, but any juvenile. There are special needs. This is a 
client population that has very unformed understanding. They 
have not been acculturated to the criminal justice system. 
Their decisionmaking is really unformed. Most of my clients had 
no idea what life imprisonment without parole meant at the 
point of their sentencing. We have got several cases where they 
didn't even understand what that means, and they kept asking, 
well, when do I get out? When do I get out?
    So lawyers working with this population have special needs. 
Particularly because there is such a high percentage of abuse 
and trauma in this cohort, you have got to be prepared to deal 
with people who are very, very fragile, very, very damaged. And 
a lot of defenders don't have that preparation. And so the 
counsel problem is a huge one.
    I should just note that, for example, in our cohort of 13- 
and 14-year-olds, most of these kids never had an appeal filed 
where the issue of their age was raised. In fact, we have got 
these 2,500 kids doing life without parole, over 2,000 of them 
do not have access to legal representation. And because they 
have been in prison now for more than a year or 3 years or 5 
years, their ability to get access to counsel is very, very 
difficult. So the counsel problem is extremely important to 
recognize.
    Mr. Scott. Is false confession a unique problem with 
juveniles?
    Mr. Stevenson. Absolutely. There is a lot of research. 
Richard Leo and some others have documented the problem of 
juvenile confession and statement. You know, without a parent, 
without a strong guardian to help kids manage criminal justice 
system decisionmaking, which they are entitled to, you are at 
great risk. And, of course, unfortunately, with this population 
they don't have strong parents. They don't have strong 
guardians that come. In fact, Joe Sullivan, the 13-year-old I 
mentioned to you, his father picked him up when he found out 
that he was going to be charged, took him to the police 
station, pushed him out of the car and then left. And so when 
he interacted with the police department, he had no parent or 
guardian there. And that is very common in this universe of 
kids that are dealing with these very extreme sentences.
    Mr. Scott. Thank you.
    And, Mr. Johnson, did you have any experience in prison--I 
understand that you had to shorten your statement briefly and 
had a comment on the confinement in prison.
    Mr. Johnson. Yes. I particularly--I had only three 
misconducts in prison. As I mentioned before in my statement, 
being sentenced as a young person going into adult system is--
change don't come easy. And so I did acquire some misconducts. 
One of the misconducts I acquired was a fighting misconduct, an 
assault, and a threatening behavior. Out of 12 years, that in 
normal cases would be considered good, but in my case I would 
end up doing 6 years in solitary confinement because of those 
misconducts.
    Mr. Scott. Thank you.
    Mr. Gohmert.
    Mr. Gohmert. Thank you, Chairman, and thank you all for 
your testimony.
    Dr. Dudley, is it possible to identify antisocial 
personalities, or what used to be sociopaths, as juveniles?
    Dr. Dudley. Well, technically you can't diagnose a 
personality disorder until the postjuvenile time period. So we 
are talking about 19-year-olds----
    Mr. Gohmert. I was just wondering if there has been any 
studies showing that you could make indications as to those who 
would follow that path.
    Dr. Dudley. No, you can't really do that. Even for children 
who have conduct disorders, it is difficult to determine kind 
of which way they are going to go until their personality is 
much more fixed, and that just simply doesn't occur that young.
    Mr. Gohmert. I would just submit that even though I am not 
an M.D., and am certainly not a psychologist, and hear Mr. 
Johnson's case, the scenario, that doesn't sound like anybody 
that is going to end up being a sociopath. I mean, he has so 
many positive things in his life going, but rage, anger, hate, 
that is not one of the positives. But it seems like the 
indications are when people act out of rage, anger, hate, that 
is a whole lot different from somebody that could control their 
conduct, but just would as soon do wrong.
    In Texas while I was a judge, I don't think they have it 
now, we didn't have life without parole for juveniles or for 
adults, so I am not as acquainted with that. But I am curious, 
Mr. Stevenson. You mentioned in your statement there are some 
that can be sentenced to life without parole as a juvenile 
without injury. Can you give me an example of what crime could 
produce no injury and still get life without parole?
    Mr. Stevenson. Yes. The case I mentioned is the case of 
Antonio Nunez in California. California has a set of laws 
that----
    Mr. Gohmert. What is the crime?
    Mr. Stevenson. Aggravated kidnapping. It was an older man 
who was at a party, he saw this young kid, put them in the 
car----
    Mr. Gohmert. No, I understand once you tell me what the 
crime could be. Then I could see all kinds of scenarios there.
    Mr. Stevenson. Yeah.
    Mr. Gohmert. And that is unusual to have a sentence to that 
extent without an injury. And I understand the frustration 
sometimes in dealing with State laws.
    But, Mr. Johnson, if I could ask, you made a number of 
references that indicate religion has assisted you greatly in 
getting to this point where, you know, you seem like the kind 
of guy you would love to sit around and visit with or go have a 
meal or something. What is your religion that has helped you 
so?
    Mr. Johnson. Well, right now I am a Muslim. I was raised as 
a Jehovah's Witness. I went to a Catholic school. I went to a 
Baptist school. So I got a variety of religions inside of me. 
But right now I do--I am a member of the church, I am a member 
of the mosque, I am a member of Sacred Heart Church in Detroit. 
I am a Muslim.
    Mr. Gohmert. Okay.
    Mr. Johnson. But I accept the beliefs of everyone, as long 
as it is only one God.
    Mr. Gohmert. Okay. Well, I was just curious.
    Mr. Johnson. Yes, sir.
    Mr. Gohmert. People have got to have hope.
    With regard to the Federal intervention here again, that is 
where my concern is. If there needs to be reform, it seems like 
it should be a concerted effort, including maybe some of us 
here, without extortion, this needs to be reformed.
    Another concern I have, I know in Texas there was 
tremendous pressure, as well as other States that have the 
death penalty for adults, that, gee, you ought to go to life 
without parole. And the thing that crops up in my mind is if we 
come back and basically--and I know it is not considered 
blackmail or extortion, but basically we are saying you want 
the money you come to rely on and is so critical to your 
programs and helping those that you have been helping, then you 
have got to change this law.
    I am wondering, well, if States like Texas went to the life 
without parole instead of the death penalty, doesn't this open 
the door to the Federal Government coming in and saying, now 
that you have done away with the death penalty, you got life 
without parole, now we are going to force you to even undo 
that? It is just once you start this Federal intervention into 
State laws, then even though I have great concerns about the 
same issues you are concerned about, there does seem to be some 
real injustice in some of these cases, but like in Mr. 
Johnson's case, if I am the judge, and I have got discretion, I 
hear the positive things in his life, and I go this is not 
somebody we need to lock up because he is going to continuously 
be a threat to society. This young man has some real potential, 
because he has already begun to show it.
    I see my time has expired. I have expressed to you some of 
my concerns about Federal intervention, though I also--you have 
touched a nerve with some of your concerns about the need for 
some State reform. And I appreciate your testimony.
    Mr. Scott. Thank you. The gentleman's time has expired.
    The Chairman of the Committee, the gentleman from Michigan, 
Mr. Conyers.
    Mr. Conyers. Thank you. I would like, Mr. Chairman, to have 
my opening statement included in the record.
    Mr. Scott. Without objection.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    Thank you, Mr. Chairman and I thank Chairman Scott for his 
leadership on H.R. 4300 in cosponsoring the legislation and for holding 
this important hearing.
    Imposing punishment incommensurate to an offense is an injustice 
that no society should embrace. Yet for some reason, we in the United 
States continue to sentence juveniles to life without parole, while 
every other nation has dispensed with it. They recognize as I hope we 
will recognize that sentencing juvenile offenders to life with no hope 
of parole is quite simply such an injustice and it is so because of 
three overall reasons.
    First, punishment should be in proportion to a offender's 
culpability. This is acknowledged in our common law history far before 
our republic was founded and today, science has proved that youngsters 
simply do not have the brain development that enables them to 
appreciate the consequences of their decisions the way adults can.
    Life without parole has historically been reserved for those 
offenders who commit murder or other violent crimes either with malice 
aforethought or depraved indifference for their actions. But, juveniles 
do not have such mental capacities as adults have. Consequently, 
juveniles cannot be culpable to deserve life with no hope of parole 
because they cannot have the requisite intent to commit a crime 
befitting that punishment.
    Second, punishment should have a deterrent effect. This is to 
protect society by discouraging would-be criminals in a general 
deterrence and by incarcerating those who show no propensity for change 
in specific deterrence. But again, science and statistics show us that 
life without parole for youthful offenders has no general deterrence 
effect because as I have said, youngsters typically do not appreciate 
the gravity of circumstances.
    Moreover, statistics show us that juveniles are the segment of the 
population that most readily responds to intervention, counseling and 
training. In fact, the vast majority of youthful offenders mature and 
commit very few offenses by the time they reach their mid 20s even 
without being imprisoned. And if an offender does not mature to the 
point of diminished recidivism, a parole hearing could determine that 
fact and deny parole. So, the incarcerating someone well past his or 
her 20's with no hope of parole serves no necessary specific deterrent 
effect.
    Third, any criminal justice system practice should be administered 
equally upon all members of society. But, of course this is not the 
case with sentencing as African Americans make up a disproportionate 
number of the prison population in this country. And this disproportion 
is particularly high in juvenile incarceration. In fact in some states, 
African-Americans are up to 48 times more likely to be sentenced to 
life without the possibility of parole than white offenders. Now, I am 
anxious to find out through our witnesses exactly why this is the case 
but, in my opinion, this simply cannot be and even-handed 
administration of practice.
    In sum, we have a criminal sentencing practice that sends 
youngsters to die in prison before they have the capacity to fully 
grasp the gravity of their offenses while they still have a chance to 
turn their lives around. The sentence is unnecessary because the 
likelihood of recidivism diminishes over time even without the 
incarceration anyway and the sentence is imposed on African-Americans 
at a rate far exceeding white defendants.
    I am very much looking forward to discussing these issues today 
because I am at a loss to understand how we can call this justice. We 
need H.R. 4300. A meaningful chance at parole would at least give 
youthful offenders hope and an incentive to engage in programs to turn 
their lives around, particularly because they are at the age where they 
are most likely to do so. We have seen enough young talent go to waste 
in prison.
    Again, I thank Chairman Bobby Scott for holding this important 
hearing and I yield back.

    Mr. Conyers. And begin with a focus on our legislation to 
change this incredibly inhumane practice, but to suggest that 
there are many, many other parts of the criminal justice system 
that do not meet the fairness test, is not constructed to 
rehabilitate whatsoever, and is also contrary to the stated 
goals of the reason we have a criminal justice system in the 
first place.
    And so I wanted to point out that on September 26th, Friday 
of this month, the Congressional Black Caucus's 38th annual 5-
day event includes a day in which the whole justice system is 
up for review. Chairman Bobby Scott and myself, Maxine Waters, 
many Members in the Congress, and Judge Louie Gohmert is being 
invited this year, although he may have been there before, but 
we want to continue examining the larger considerations. It is 
at the Washington Convention Center. In addition, we will have 
the Citizens United for the Rehabilitation of Errants, CURE, 
where Charlie and Pauline Sullivan have been working with us 
for, I think, more than 15 years, to put it mildly. And we will 
also have Marc Mauer and The Sentencing Project. And we would 
like to extend our invitation to all of you as witnesses. And 
there are many others.
    We have had more hearings of significance on the criminal 
justice system under Chairman Scott than any time in the course 
of my career here, which dates back to an unusually long and 
unspecified period of time. I will not go into the compromise 
at the Wormley Hotel in a Presidential dispute that occurred 
quite a way back. But the point is that what we are challenged 
to do is to go beyond documenting and talking about this among 
ourselves.
    The one thing I want to recommend that I discussed with the 
gentlewoman from Los Angeles, Maxine Waters, is the creation of 
a database that incorporates all of these transgressions of 
justice so that they are not episodically related at a hearing 
there, and at the CBC, and at two or three, four dozen of the 
other hearings; that there is a bank where people of critical 
judgment can examine how extensive the miscarriages of justice 
are that occur in the American process.
    In addition, we have what is to me a resurgence of police 
violence in this country that is going on. When I have Sheila 
Jackson Lee, Maxine Waters, Eddie Bernice Johnson that come to 
mind immediately who are saying we have got police problems 
going off the roof, they are out of control; we have a 
sentencing structure that has been--we have been attacking it 
for literally two decades now; all of these things suggest one 
thing to me, and I would like to just get your responses to 
anything that I may have said, but what it says to me is we 
need a new way to approach the resolution of the problems of 
which we are all familiar.
    It means that we are talking unsatisfactorily to those 
people--and I know these things have historical cycles where 
there is let's have mandatory minimums. We are now coming into 
a new period where most people, including the Supreme Court, 
are looking with obvious skepticism on their value. There are 
other people that are coming around, we may be going through a 
cycle, but the legislative process consists of more than just 
hearing the wrong thing and creating the right thing to go 
along with it, because that can go on indefinitely.
    Fifty years from now there will be another Subcommittee 
Chairman. I will probably likely be the Chairman of the 
Judiciary Committee still. But that is a bionic consideration 
that we need not go into here now. But we can do this; we could 
go on for a century of hearing, of criticizing, documenting, 
introducing remedial legislation, and this keeps going on.
    We build walls, libraries become full of all this, but 
there has got to be in the legislative process--if there is to 
be success, there has got to be an analysis of what it takes to 
lead to success. And obviously, the first thing involved in 
that is being able to talk to those forces and parties and 
individuals in law, in the legislative process that can change 
things. And so I would like to, if I can get the additional 
time, Mr. Chairman, just starting with Elizabeth Calvin, 
Esquire, just go down the row here to see if any of these 
notions cause any reflection on the part of any of our 
distinguished witnesses.
    Ms. Calvin. Yes. Mr. Chairman, I could not agree with you 
more about the importance of having solid data about what is 
going on in our country, in particular in how children and 
young people are being treated in the juvenile and criminal 
justice systems. I can tell you from my experience of gathering 
data in California, it took me 9 months to get the Department 
of Corrections to give me data that is public record. And part 
of that was--well, I think there were a number of reasons. But 
it was a struggle. And I think we in many cases do not have 
enough information.
    I would like to, Mr. Chairman, if I could--pardon me, I 
should have asked this earlier, I have submitted two Human 
Rights Watch reports that detail the data that we have been 
able to find nationally as well as in California. I would like 
to submit those as a part of the record. One is ``The Rest of 
Their Lives: Youth Serving Life Without Parole in the United 
States,'' and the other is the one focused on California, 
``When I Die, They'll Send Me Home.''
    Mr. Scott. Without objection.*
---------------------------------------------------------------------------
    *The Human Rights Watch reports submitted by Ms. Calvin have been 
made a permanent part of this record and are archived at the Committee 
on the Judiciary.
---------------------------------------------------------------------------
    Mr. Johnson. Yes, Chairman, as you were speaking, I began 
to reflect on the things that I experienced in prison, what I 
can do in relation to all of this or what I can add on to that.
    What I believe, in collecting the data, you know, there is 
no system set up throughout the entire United States whereby we 
can see what they are actually doing in prison. And as Judge 
Gohmert hinted to, it makes those who are part of the fact-
finding hearing process, it makes it difficult for them to 
ascertain who can be let go or who can be given a second 
chance. And I think that if a program is set up inside the 
system all around this country that can ascertain and keep data 
and information about who is going to college, who is helping 
out with other prisoners, who is involved in correspondence 
courses, who is involved in vocational training, who is 
involved in extracurricular activities outside of the normal 
prison, I think that would alleviate a lot of hardships and 
headaches when it comes to the decision-making process of who 
we can let go and who we can't. Thank you.
    Dr. Dudley. I certainly agree with the issue of the 
importance of collecting data, but I think one of the things 
that we also need to focus on is the collecting of data that 
hasn't been collected or that would be extremely difficult to 
collect.
    One of the things that I didn't talk about in an attempt to 
be brief was just the assessment of adolescents, and this would 
have been more in response to your question, Judge Gohmert, 
that, you know, one of the characteristics of adolescents is 
that they have so much difficulty managing their feelings. And 
you know, they act up; they defend against them in really just 
kind of outrageous ways because they can't handle some of the 
hurt and some of the things that they have. And that is why 
they give us all such headaches, you know, whether they are in 
trouble or not. And so some real assessment about what even the 
anger that appears to be there actually means. Is that just a 
way of I am so hurt that, you know, I can't tell you that? And 
what I am giving you is all of this kind of apparent anger?
    I mean, I have lost count over the years of the number of 
adolescents who appear angry and bitter and closed and unopen, 
but when you actually can manage to get past that in the 
evaluation process, how they break down and cry, and what 
appeared to be this anger and hostility really is something 
very different than that.
    And so data about how we fail really in even assessing 
these adolescents when they present in court is just not even 
available. But I suspect that we would find out, and anybody 
who works with adolescents will tell you this, that we are 
notoriously poor at really being able to tell you where an 
adolescent is at that time and that they are going to change so 
much. And so the notion of taking another look when they are a 
little older, because they can look so crazy at 13, and then a 
couple years later look so different, is what makes this 
legislation make so much sense.
    Mr. Stevenson. Yes, Chairman Conyers, I also agree 
wholeheartedly that this problem reflects a broader set of 
problems that we see in the criminal justice system that I 
absolutely agree needs to be addressed. I am delighted to hear 
about the CBC gathering, because I think that is very 
important. You know, I think some of the transformation, I 
think, can come through some of these sorts of responses.
    The four things that I see that kind of permeate the 
criminal justice system and that are certainly present here 
have to do with counsel. We can make the criminal justice 
system function better if we approach this problem of poor 
people not getting the legal help they need in a very different 
way. We have a criminal justice system in this country that is 
incredibly wealth-sensitive. Our system treats you better if 
you are rich and guilty than if you are poor and innocent. 
Culpability is not what shapes the outcome, it is wealth. And I 
think we have to understand that when we think about reform.
    Second is race. There is real consciousness about race in 
the criminal justice system. Young men of color, Muslim men, 
African American men are presumed guilty. And so the lawyer has 
to overcome a presumption of guilt, which is not the way our 
system is set up, and as a result of that, lawyers fail to meet 
that burden. And we see that represented in the prison system. 
In this cohort of 13- and 14-year-olds, all of the 13-year-olds 
are Black. All of the kids who have been sentenced to die in 
prison at 13 and 14 for nonhomicides are kids of color. All of 
them. And it reflects the way in which we can demonize and 
devalue and use race as a lens for that.
    One of my real strong recommendations is that we have got 
to find a way to make confronting race bias a priority. You 
know, I do death penalty cases, and my great frustration is we 
see gross evidence of racial bias all the time. I have got a 
case going to the eleventh circuit next month where a 
prosecutor in Selma, Alabama, a majority Black county, used all 
of his peremptory strikes, the discretionary strikes to pick a 
jury, to exclude 23 of the 23 Black people qualified for jury 
service. When he was asked to give a reason, he said, the first 
six people I struck were because they, quote, look of low 
intelligence, end quote. Nothing in the record to support that. 
And the State courts have affirmed that conviction and 
sentence, the Federal court has affirmed that conviction and 
sentence. And we are going to the eleventh circuit next month, 
and I am fearful that this man on death row could have that 
sentence affirmed because of proceduralism. We have now 
insulated claims of race bias from substantive review through 
the Antiterrorism Effective Death Penalty Act and other 
procedures. So I think that is an important concern.
    And then finally, the last two things, I think, to be 
transformative, we have got to restore a culture both in the 
criminal justice system and out that recognizes what we should 
all know and understand, and that is that each person is more 
than the worst thing they have ever done. Your worst act is not 
all you are. And if we have that consciousness, I think we can 
make sentencing more fair.
    And then finally, I think we have to have this 
transformative idea that we grew up with, a lot of us, which is 
that you don't judge the civility of a society, you don't judge 
the character of a society by how you treat the rich and the 
affluent and the powerful and the privileged; you judge the 
character and civility of the society by how you treat the 
hated, the imprisoned, the poor, the disenfranchised and the 
marginalized.
    I think if we have those principles in mind, we can do some 
of the transformative work that I agree desperately is needed.
    Mr. Scott. Thank you. The gentleman's time has expired.
    The gentlelady from California Ms. Waters.
    Ms. Waters. Thank you very much, Mr. Chairman.
    I would like to first thank you for your work and your 
courage, and to simply say what most of the people in this room 
already know. There are not many elected officials who are 
willing to take on these issues and be identified as someone 
who is fighting to provide justice for people who have 
committed serious crimes. The body politic has developed over 
the years in such a way that you are thought to be soft on 
crime, and it is used against you in campaigns. And so most of 
our elected officials don't have the courage to even stand up 
when it is quite obvious that there is something terribly wrong 
in the criminal justice system that is sentencing children to 
life in prison and other kinds of biases that are seen in the 
criminal justice system.
    So our Chairman really is--Mr. Scott, the Chairman of the 
Subcommittee, is to be congratulated. But, of course, he has 
taken on the work of John Conyers, who has been doing this work 
for years. When I first met John Conyers 100 years ago, he was 
out there alone practically in this country doing this kind of 
work.
    So I am very, very pleased to join with them and all of our 
efforts in trying to deal with the criminal justice system, 
whether it is talking about children who are sentenced to life 
without parole, or mandatory minimum sentences as relates to 
crack cocaine, all of these things we work on. And we are 
usually battling against a mind-set in the body politic that is 
not prepared to just do the right thing. It is very, very 
difficult work.
    I thank you all for being here today.
    And, Mr. Johnson, I thank you for telling your story and 
sharing that information with all of us. Despite the fact that 
most of the people that you see up here are committed and 
dedicated to trying to deal with these problems, we don't often 
have an opportunity to let people really know what is going on 
as we try and accomplish these things.
    Now let me just say this: This bill is extremely important. 
And when you describe what is happening in the criminal justice 
system and you talk about young children who are raped and 
abused and developed and trained to be prostitutes, it is 
unimaginable that judges and juries would not take all of that 
into consideration. But I know it happens day in and day out.
    I have worked, you know, in the feminist community and with 
women for a number of years. And as you know, you began to see 
a number of cases where women committed murder against men who 
were acting this way and treating them this way, abusing them. 
And we had cases where there had been years of abuse; and women 
finally--some of them acted out.
    And, you know, the women's community kind of got together 
and supported many of these women who were convicted. And I 
think there have been some cases where their sentences have 
been modified or overturned, et cetera.
    We have not had a lot of advocates for children who get 
sentenced to these long terms or life without parole. This 
effort that you see here is a kind of a renewed or maybe first-
time real effort to take a look at this.
    I know that there are some Members who have voted from time 
to time when these issues were before us, but you would be 
surprised that some of our Members who consider themselves 
progressive, who represent communities where this is most 
likely to happen because they represent poor people and people 
of color, have voted the opposite direction. And there is one 
person whose name I won't mention who is no longer here that 
just infuriated me because of what happened on the Senate side 
with this issue several years ago.
    But having said all of that, yes, data, information, all of 
that is important. But the kind of change that we need in the 
criminal justice system demands that there is more diversity in 
the system. When you look at the criminal justice system, when 
you look at the prosecuting attorneys, when you look at people 
who have the ability to make decisions such as you are 
describing about what is going on in Alabama, what you will 
find is that there is no diversity on these--you know in many 
of these counties and these judges, et cetera; and we have got 
to work harder at that. And, of course, we have got to continue 
to try and elect people to office who will have the courage to 
do the right thing.
    I know I haven't asked you one question and the reason I 
haven't asked you any questions is because I know all the 
answers. I have been here long enough to know what is wrong 
with this system. I have been here long enough to have heard 
these cases. And so don't think that because I didn't ask you I 
am not interested. I just have to tell you and admit, I know.
    So thank you very much for being here.
    Mr. Scott. Thank you very much. And I appreciate the 
gentleman's comments.
    The gentleman from Georgia, Mr. Johnson.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    Mr. Johnson----
    Mr. Scott. I am sorry. I didn't notice Mr. Coble was here. 
Excuse me.
    The gentleman from North Carolina.
    Mr. Coble. Mr. Chairman, I was at an Intellectual Property 
Subcommittee hearing, and I apologize for my belated arrival. I 
have no questions for the moment.
    Mr. Scott. Thank you.
    Mr. Johnson.
    Mr. Johnson of Georgia. Thank you.
    Mr. Johnson, you say you spent 12 years in prison?
    Mr. Johnson. Yes, sir.
    Mr. Johnson of Georgia. And how old were you when you first 
went in?
    Mr. Johnson. Seventeen, sir.
    Mr. Johnson of Georgia. Seventeen. And how would you 
describe what rehabilitation programs were available to you in 
the early phases of your incarceration?
    Mr. Johnson. That is unique that you asked it in that way 
because that is when it was available, in the early years of my 
incarceration.
    When I first went into prison as a teenager, there was 
vocational training. There was carpentry, there was plumbing, 
there was electrical engineering, there was opportunity to be a 
paralegal, certified through a school of law out in Dallas.
    That changed in 1995 where those programs were alleviated 
to prisoners who were serving time inside of closed custody 
prisons or maximum security prisons. And those opportunities 
were only afforded to those who were given life sentences and 
sentenced to low or medium or camp status facilities.
    So the majority of my rehabilitation, if you will, came 
about from the initial stages of my incarceration where those 
programs were available; and I just had the spirit to continue 
them on.
    I think when you talk about rehabilitation, Mr. Johnson, I 
think that is--in this instance, in 2000, I think that is an 
individual choice. It is an individual determination. And to 
get back to your question, I don't think that the system now--I 
don't know whether it is finance or whatever it may be--is 
designed for that.
    And if I may add, if you have an individual that does take 
advantage of whatever, whether it is a correspondence course or 
whether it is reaching out to a victim's family, becoming a 
part of a victim's group or whatever, it should be applaudable 
because it is almost nonexistent today in the system.
    Mr. Johnson of Georgia. Can you tell me whether or not 
there were any persons below the age of 17 who were 
incarcerated with adults while you were----
    Mr. Johnson. Certainly.
    Yes, sir. I was sentenced and sent to what is called 
Michigan Reformatory. It has since shut down, and then it has 
reopened in the last couple of years.
    But the Michigan Reformatory is a particular prison where 
individuals 16 to 21 years old were housed. There were a couple 
thousand of us there at one time. You had 16, me, 17, 18, you 
had individuals 19. So all over the system now that has changed 
where you can go just about anywhere. And I believe that is the 
same way nationwide where there is young adult offenders, 16 
years old or 17, that is currently housed in the same cell 
blocks, the same facility or institution, as those who are 
adults.
    Mr. Johnson of Georgia. Any comment on that, Ms. Calvin or 
Mr. Stevenson?
    Ms. Calvin. Well, I would add on both points, first, it is 
consistent with the investigation that we have done across the 
country that in many cases people, young people, who are 
serving life without parole do have less access to 
rehabilitative programming than other prisoners. And as one 
young man in California told me, those programs are for people 
who are going to get out. So if there are limited programs, 
people are essentially moved to the bottom of the list if they 
have a life without parole sentence.
    With regards to juveniles being held with adults, I think 
that is something that is different from State to State. And I 
can tell you in California, that is something that has changed, 
and to our knowledge, people are 18 before they are put into 
adult prisons in California. I know that there are other States 
that this is not true for.
    I would point out, however, that even 18-year-olds face a 
lot of violence and threats when they enter in prison. As one 
person told me, he still did not have facial hair, and was 
essentially learning to shave in prison and was small in 
stature at age 18. And even though that comports with the 
Federal law on mixing people under the age of 18 with adults, 
that still is a very serious matter for those States that are 
putting away 18-year-olds.
    Mr. Stevenson. Representative Johnson, I will just add that 
in 15 of the 19 States where we have done work representing 13- 
and 14-year-old kids sentenced to life imprisonment without 
parole, there was incarceration of very young offenders with 
adults. And part of it has to do with the sentence.
    Life without parole is the harshest sentence you can get. 
In 12 States it is the maximum sentence. And they have 
classification systems; the Departments of Correction around 
the country have moved to a classification system, which I 
applaud, where they try to segregate prisoners based on the 
level of offense. And they dictate that by sentence, so if you 
have a sentence of life without parole, you are going to be 
thrown in with the worst offenders in the system. And 
unfortunately, most of these States--again, because they 
haven't thought this stuff through--have not created exceptions 
for very young offenders.
    So a lot of my clients were in the State penitentiary, the 
worst State penitentiary at 15, 16, 17 years of age, which is 
why we have found such a high level of sexual assault, rape, 
abuse, et cetera, because you are just very vulnerable at that 
age in these kinds of institutions.
    Mr. Johnson of Georgia. Mr. Stevenson, you reported that 
all of the incarcerated juveniles below the age of 14 in this 
country are persons of color?
    Mr. Stevenson. That is correct. We have identified eight 
young people who have been sentenced to life imprisonment 
without parole. All of them are African American.
    We have identified nine young people--and this is in the 
cohort of 13 and 14-year-olds. We have identified nine young 
people who have been sentenced to life without parole for 
nonhomicide offenses--robbery, the kidnapping cases I 
mentioned. All of those children are kids of color.
    Mr. Johnson of Georgia. This is more than just 
disproportionate sentencing. It is almost exclusive sentencing 
for young African Americans and Hispanics.
    Mr. Stevenson. Yes. That is certainly true.
    Mr. Johnson of Georgia. Thank you. I yield back.
    Mr. Scott. Thank you.
    The gentleman from Texas is recognized.
    Mr. Gohmert. Just in response, there has been so much talk 
about racial bias. And you know, the comment that racial bias, 
Mr. Stevenson, is, there is racial bias in our justice system.
    I would acknowledge there is some that--let me tell you, 
the first job I had as a lawyer was as a prosecutor in a small 
town, three small counties. And the main racial bias that we 
fought at that time was the lack of prosecution of African 
Americans who attacked African Americans. It was, ``Well, they 
just do that kind of thing,'' was the comment. And I was proud 
to work for a DA that said, everybody is entitled to be 
protected by the justice system. And we turned that around. And 
so I have seen that.
    But at the same time, when I hear a blanket allegation that 
the justice system--and we hear anecdotal indications and then 
even sometimes spouting statistics. If an African American 
victim comes in and says, it was an African American that hit 
me, I see no need to go looking for White people as the 
perpetrators of the crime.
    So to see more about the issue of race, it would seem you 
would need to find out, you know, what race actually did the 
crime; that the problem may not be necessarily with the justice 
system, but what is causing so much more crime in one racial 
community or among one race more than with another.
    And so, anecdotally, I feel compelled to tell you, in my 
courtroom I tried three capital murder cases. Two were White 
and one was an African American defendant. Two got the death 
penalty. One didn't. The two White men got the death penalty, 
and it was appropriate. And it was--well, and then as far--I 
was subpoenaed one time because there was a blanket attack. 
People were encouraged at some seminar: Go after your county 
because the judge doesn't pick the grand jurors, but they do 
pick the grand jury foreman. Then you can show that they are 
racially biased. I could have cared less what race my foremen 
were. I wanted the best, most organized person.
    They decided they didn't need me after they found out I had 
actually appointed more African Americans to foreman because 
just out of the panel that was selected by the commissioners, I 
knew those people and I knew they were the best organizers. And 
I repeatedly had prosecutors who made sure I got the right 
foremen on that grand jury.
    One other thing: I was court appointed to represent one 
death penalty appeal. I didn't want it. I went over and begged 
the judge, ``I don't do criminal law as a rule. Please.'' And 
he said, ``You will do a good job. I know you will be fair. So 
now you have got it.''
    The defendant was African American and had been sentenced 
to death. I could have cared less what race he was. He got 
tremendous representation. I poured my whole heart and soul 
into it because he didn't get a fair trial. And the justice 
system did the appropriate thing; the case was reversed.
    So when I hear, you know, these blanket allegations, you 
know, the system is just biased, I feel like I have got to 
provide a defense because it isn't across the board. There are 
very, very fair aspects within the justice system itself. And I 
hope we can root out where the causes for racial bias are and 
work on those.
    And, frankly, I believe sometimes it is born out of the 
legislation here, because I am--one of the most frustrating 
things that brought me to Washington, I was seeing far too many 
people who were from families where someone had been lured into 
a life of dependency on the Federal Government because they 
were told, why don't you go have a baby out of wedlock and you 
will start getting a check.
    And they found out that wasn't enough money to live on. 
They went and had another child and another child, and there 
was no hope for these people. And so they turned either to 
crime or welfare fraud, ended up in my court. They were lured 
into that way of life.
    Instead, we should have been providing incentives to finish 
your education. We will help you with child care so you can 
reach that God-given potential. We didn't provide them hope; we 
provided them a rut they couldn't get out of. So those are the 
kinds of things I want to guard against.
    And, Mr. Johnson, when I hear that your father was an 
encouragement to you, that is what I wish we could provide more 
incentives for more fathers to do instead of providing more 
incentives like a marriage penalty.
    There is still that. You want to be married, you are going 
to pay a financial penalty. So I hope we can work together to 
help provide more reasons for hope and less reasons for 
injustice.
    But I thank you for the second round.
    Mr. Scott. Thank you.
    Just to follow up on that, Ms. Calvin, were you involved in 
the California study?
    Ms. Calvin. Yes, sir.
    Mr. Scott. And did that reveal that African American youth 
arrested for murder were almost six times more likely to 
receive a life sentence without parole than White youth 
arrested for murder?
    Ms. Calvin. Yes, that is true. Could I explain a little bit 
about it? It is pretty remarkable data.
    We first looked at the ratio, the per capita ratio. And as 
I mentioned earlier, we found nationally it is 10 times more 
likely. In Connecticut, a Black youth is 48 times more likely 
to get the sentence than a White youth. In Pennsylvania, they 
are 21 times more likely.
    We looked specifically, because I think some people may 
argue, well, don't more Black people commit more crimes? But 
when we look specifically at youth who are charged with murder 
and we compare Black youth who have been charged with murder 
with White youth who have been charged with murder, there is 
still a huge difference.
    And so, for an example, Black youth in California are 
nearly six times more likely to get life without parole, those 
who have been charged with murder, than the White youth charged 
with murder. And I don't think there is an explanation other 
than discrimination.
    I would like to say one thing, because I think you raise a 
very serious point. Across this country there are dedicated 
public defenders and other attorneys who are working long into 
the night to help people. But there are many, many, many cases 
in which young people are being told to plead guilty to a life 
without parole case or something else that is very serious.
    In California, we have data on more than half the cases, 
and it is our estimate that in 45 percent of the cases the 
attorney for the child at the sentencing hearing did not argue 
for a lower sentence. So--the person who is in the courtroom 
there for that individual did not argue for a lower sentence, 
so there is something very, very broken.
    Mr. Gohmert. In those cases, was there an appeal by a 
different attorney?
    Ms. Calvin. Yes.
    Mr. Gohmert. Because normally we would try to make sure 
there was a different attorney that handled appeals so you 
could point out those kinds of things. That is almost per se 
malpractice.
    Ms. Calvin. Yeah. In my understanding of California law, 
they typically do have a different attorney for the appeal 
because they need to be able to look at----
    Mr. Gohmert. It would be per se malpractice if you didn't 
argue for a lower sentence. I just can't imagine that not being 
an issue.
    Ms. Calvin. It is horrific. I think someone who has been an 
attorney understands just how deeply wrong that is, yes.
    Mr. Scott. Thank you.
    Did you have a final comment?
    Mr. Stevenson. Yes. Just to follow up on that. I mean, I 
think you are right, Judge, that that would be required. 
Unfortunately, without again an engagement in the particular 
problems that these cases present, we have seen a lot of these 
appeals, and the issues you would expect to be raised don't get 
raised. And, of course, there is no right to counsel then for 
collateral review. So most of this universe of 2,500 kids have 
never had their cases on these kinds of issues reviewed 
substantively.
    I also want to commend you because I think that you are 
right in recognizing the complexity of race. A lot of it is--
when I talk about bias, I am also talking about 
underprosecution of cases involving minority victims in some 
jurisdictions. Some folks have done some things about it. You 
have identified your work.
    When we think about these issues, we recognize that we are 
not always talking about conscious, insidious, intentional 
racial bias. We are talking about systems that operate in a way 
that disadvantaged youth of color and people of color and folks 
just having got to it.
    You talk about jury selection. That is one of the issues we 
do a lot of. In virtually all of the counties where I practiced 
there are huge disparities between the percentage of people of 
color in the county and the percentage of people of color on 
the jury pool. And that means that you see this lack of 
diversity that Congresswoman Waters was talking about.
    So I do think that all of that is part of the picture that 
we have to address. I don't mean to suggest that it is all 
willful, intentional and malicious. But it is consequential, 
and I think we are seeing some of those consequences with these 
data and with these sentences. And I do believe it really does 
require some attention and effort by this Congress and by 
others who recognize the importance of a just system that does 
not demonize on the basis of race.
    Mr. Scott. Thank you.
    Dr. Dudley, did you have a final comment?
    Dr. Dudley. I think the thing to add to that is that this 
issue that we have been discussing here, toward the end, is not 
really correctable by, you know, mental health evaluations and 
assessments of adolescents. And in that case, race really does 
matter because we want to have an ethno-culturally competent 
evaluation on top of all these other difficulties related to 
assessing adolescents that I have alluded to before.
    Unless you have someone who is competent to handle 
evaluations of these kids of color, they won't be able to 
engage them, they won't be able to kind of open them up and 
find out what is, in fact, really going on. And they could be 
misperceived as having difficulties they don't really have or 
not being able to be responsive to interventions that might be 
available to them or helpful to them.
    Mr. Scott. Thank you very much.
    I want to thank our witnesses for their testimony today. 
Members may have additional written questions for our 
witnesses, which we will forward to you and ask you for answers 
as promptly as possible so that the answers may be part of the 
record. Without objection, the hearing record will remain open 
for 1 week for the submission of additional materials.
    Without objection, the Subcommittee stands adjourned.
    [Whereupon, at 3:41 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Louie Gohmert, a Representative in 
 Congress from the State of Texas, and Ranking Member, Subcommittee on 
                Crime, Terrorism, and Homeland Security
    Thank you, Chairman Scott.
    Today, the Crime Subcommittee is holding a legislative hearing on 
H.R. 4300, the Juvenile Justice Accountability and Improvement Act. 
This bill requires states to give parole reviews to juvenile offenders 
who are sentenced to life with parole--a sentence that is generally 
reserved for offenders who have committed murder.
    H.R. 4300 requires states to provide parole reviews to these 
dangerous offenders at least once during their first 15 years of 
incarceration and at least once every three years thereafter. If a 
state does not comply with this federal directive, the bill mandates 
that the state lose 10% of its Byrne JAG funding.
    This bill seeks to regulate a prerogative--sentencing of convicted 
criminals--that is exclusively a state issue. Unless their laws violate 
a constitutional right, states have exclusive control over the 
prosecution and sentencing of defendants within their jurisdiction.
    In the 1990's, the overwhelming majority of state legislatures 
appropriately adopted sweeping changes to their juvenile criminal codes 
to properly address what the juvenile justice system had overlooked: 
that protection of public safety is of paramount concern whether the 
offender is juvenile or an adult.
    These state legislatures revised their codes to allow juveniles 
charged with serious violent crimes to be tried as adults to ensure 
that a juvenile offender was not sentenced less seriously for their 
criminal behavior solely because of their age and perceived immaturity.
    Presently, 39 states allow for juveniles to be tried as adults and 
sentenced to imprisonment for life without parole if they are convicted 
of violent crimes such as murder. In some states, a sentence of life 
without parole is mandatory if a juvenile is convicted of certain 
crimes; in other states, the sentencing judge has discretion as to the 
sentence.
    When prosecutors determine whether it is appropriate to charge a 
juvenile defendant as an adult, they consider a number of factors. 
Included in those factors are the nature and circumstances of the 
offense, the impact of the offense on the victim, and the juvenile 
offender's criminal history.
    As a result of this deliberative process, very few juveniles are 
charged as adults. According to the National District Attorneys' 
Association, most jurisdictions in America prosecute only one to two 
percent of juvenile criminal offenders as adults, and in some 
jurisdictions this percentage is even lower.
    Groups advocating the passage of H.R. 4300 argue that because the 
United States is the only country where juveniles can be sentenced for 
life without parole, we should change sentencing structure.
    However, the simple fact of the matter is that most state 
legislatures--and the constituents that they represent--have determined 
that tough sentencing is required to (1) punish offenders that have 
committed murder and other violent crimes and (2) to deter others from 
committing similar crimes in the future.
    I am concerned that H.R. 4300 is an unfunded mandate that would 
impose costly financial obligations on a number of states. Eleven 
states and the District of Columbia have determinate sentencing systems 
that do not allow parole. In order to implement the requirement of H.R. 
4300, these states would presumably have to create, fund, and maintain 
a parole board to conduct hearing for juvenile LWOP offenders.
    Further, a federal mandate that a state provide parole reviews for 
one class of offenders that is not available to other offenders could 
create equal protection issues within that state.
    H.R. 4300 also violates the principles of federalism that are the 
foundation of our legal system. It is inappropriate at best and 
unconstitutional at worst for Congress to seek to regulate the manner 
in which states determine appropriate sentences for state crimes 
committed and prosecuted within their jurisdiction.
    A lot of legislation in Congress uses the ``carrot and stick 
approach'' to encourage states to adopt policies favored by Members. 
However, H.R. 4300 takes the ``stick only'' approach. The bill 
unreasonably threatens to withhold Byrne JAG grants from the states 
unless they comply with its mandates. This threat forces the states to 
make the impossible decision of substituting Congress's judgment 
regarding sentencing for its own or risk losing important funds that 
help state and local law enforcement officials accomplish their 
mission.
    For these reasons, it is unlikely that I can support this bill.
    I yield back the balance of my time.

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
